’"'inpr
This opinion was
filed for record
at
on
/6/ 20/7

IN CLERKS OFFICE
X
I&1FR3S COURT, (TRIE OF WL3K3KJTCH

!_oats, MAY 1 fi onjn '

Pe/J'L,
•fd<' Susan L. Carlson
Supreme Court Clerk

iCtCi Ji^upd-1 fiQ
CHIEF JUSTICE
1

IN THE SUPREME COURT OF THE STATE OF WASHINGTON

STATE OF WASHINGTON,
Petitioner,
v.

NO. 95905-6

EN BANC

LEONEL ROMERO-OCHOA,

Filed

MAY 1 6 2019

Respondent. .

STEPHENS, J.

A juiy convicted Leonel Roraero-Ochoa of burglary,

unlawful imprisonment, assault, and multiple counts of rape, arising from an incident
in which he broke into a woman’s home, beat her, and raped her twice. At trial,
Romero-Ochoa sought to admit evidence that the victim had applied for a U visa in
connection with these crimes. A U visa grants temporary legal resident status to a
person who is the victim of a qualifying crime and who helps law enforcement
investigate or prosecute that crime. The trial court excluded the 0 visa evidence.

State v. Romero-Ochoa (Leonel), 95905-6

Romero-Ochoa appealed his convictions on the ground that exclusion of the
U visa evidence violated his state and federal constitutional rights to present a
defense and to confront witnesses. Wash. Const, art. I, § 22; U.S. Const, amend.
VI. Division Two of the Court of Appeals agreed. It reversed all but the unlawful
imprisonment conviction, holding the constitutional error was harmless beyond a
reasonable doubt as to -that-conviction but not as to the others, because “[although
the State’s evidence against [Romero-]Ochoa was strong, its strength depended
entirely on the jury finding [the victim]’s testimony credible.” State v. RomeroOchoa, No. 48454-4-II, slip op. at 1, 8, 15 (Wash. Ct. App. Dec. 28, 2017)
\.

(unpublished), http://www.courts.wa.gov/opinions/pdfrD2%2048454-4-II%20Unpublished%20Opinion.PDF.
/

We granted the State’s petition for review, which raised only the harmless
error issue. State v. Romero-Ochoa, 191 Wn.2d 1005 (2018). On that issue, we now
/

i

reverse the Court of Appeals and hold that any error in excluding the U visa evidence
was harmless as to all of Romero-Ochoa’s convictions. We therefore reinstate the
convictions for rape, burglary, and assault and remand for the Court of Appeals to
consider the claim of sentencing error it did not reach before.1

See Romero-Ochoa, No. 48454-4-II, slip op. at 1-2.
-2-

State v. Romero-Ochoa (Leonel), 95905-6

FACTS
The State charged Romero-Ochoa with burglary, kidnapping', and .multiple
counts of rape, arising from an incident in which he climbed through the victim’s
bedroom window and repeatedly beat and raped her.
Before trial, the State moved to exclude any reference to the immigration
status of the victim, any witness, or the defendant. The defense sought to introduce
evidence that the victim had twice applied for a U visa, once relating to an assault '
by her ex-husband and once relating to the events giving rise to this Case. According
-to defense counsel, the prior U visa application had not been approved. The second
/•

application was on hold, pending certification from local law enforcement that the
victim “ha[d] been cooperative with authorities.” 3 Verbatim Report of Proceedings
(VRP) (Oct. 14, 2015) at 94. According to the deputy prosecutor, this certification
could come either from her office or from the police, but her office maintained a
policy not to consider any application while a case was still pending, It was
undisputed that the victim sought this certification from the prosecutor’s office. It
was also undisputed that the prosecutor told her the office would not consider the
merits of U visa certification while a criminal case was still pending, but that the
victim could resubmit her request when the case was closed.

-3-

■

State v. Romero-Ochoa (Leonel), 95905-6

The trial court initially excluded only evidence of the prior U visa application,
provided such evidence did not become necessary to impeach the victim regarding
when she became aware of the U visa program. It also permitted the defense, over
the State’s objection, to question the potential jurors about their attitudes regarding
immigration.

The court specifically noted that it was allowing this line of

questioning because it was appropriate to explore potential jurors’ attitudes about
race or national origin at a trial where a Latino defendant would be testifying in
Spanish using an interpreter.2- Several days later and after consulting additional
authority, the trial court excluded any evidence of the current U visa application. It
explained:

•

I think once you start bringing in the issue of immigration status,
it becomes a very slippery slope. And given the emotioiial reactions
one way or another, which we saw during voir dire ....
I just am concemedrabouttheinflammatory-effeet-oTthtatk-indrof
evidence, and I’m going to exclude any evidence of the U visa or
anything else about immigration of either parties, any of the witnesses.
And that’s my ruling.

5 VRP (Oct 19, 2015) at 28. Acknowledging the lack of Washington case law on
point and the existence of out-of-state authority contrary to its ruling, the court .
'

-

i

-

_j

2 At trial, Romero-Ochoa took the stand and testified in Spanish, using an
interpreter. There was also some testimony about the use of Spanish-speaking law
enforcement and medical personnel to interview the victim and other bilingual witnesses,
but no other witness testified using an interpreter.
4-

State v. Romero-Ochoa (Leonel), 95905-6

clarified that it was finding the U visa application relevant but that its “probative
value is overwhelmed by the prejudicial effect.” Id. at 32.

'

At trial, the State presented testimony from 19 different witnesses; RomeroOchoa was the only witness for the defense. The victim described the events at issue
as involving two separate acts of stranger rape in the context of a horrific home
invasion; in contrast, Romero-Ochoa described the events 'as consensual sex in the
context of a secret affair spanning years. The jury returned guilty verdicts on two
counts of first degree rape, two counts of second degree rape, one count of first'
degree burglary, one count of unlawful imprisonment and one count of second
degree assault. By special verdicts, the jury found that Romero-Ocho a committed
the burglary and assault with a sexual motivation; that he restrained the victim by
physical force, intimidation, or deception; and that he committed second degree
assault by strangulation.
Romero-Ochoa appealed his conviction on the ground that, by excluding the
U visa evidence, the trial court violated his constitutional rights to confront adverse
witnesses and to present a defense. Division Two agreed that the trial court
committed constitutional error, and it reversed on every count except unlawful
imprisonment. Romero-Ochoa, No. 48454-4-II, slip op. at 1. As to that count, the
Court of Appeals found the trial court’s error harmless. Id. The distinction it drew
-5-

State v. Romero-Ochoa (Leonel), 95905-6

was based on the fact that a neighbor saw Romero-Ochoa grab the victim by the hair
and drag her back into her home, supporting the unlawful imprisonment conviction,
but no third party visually witnessed the burglary, assault, or rapes inside the
victim’s home. Id. at 15-16. According to the Court of Appeals, this meant that
proof of the burglary, assault, and rapes turned entirely on the victim’s credibility.
Id. The Court of Appeals reversed and remanded for a new tngl on all but the
unlawful imprisonment charge. Id. at 16. As noted above, the court did not reach
Romero-Ochoa’s claim of sentencing error. Id. at 16-17.
, The State filed a motion for reconsideration, which Division Two' denied, and
then petitioned this court for review. The State did not challenge the Court of
Appeals’ holding on the admissibility of the U visa evidence. Instead, it argued only
that this court should overturn the Court of Appeals’ holding on harmless error
because it erroneously implied an eyewitness corroboration requirement in conflict
with well-settled precedent. We. granted review.
ANALYSIS
Both the state and federal constitutions guarantee a criminal defendant the
right to present a defense and to confront adverse witnesses at trial, but violations of
those rights are subject to constitutional harmless error review. Delaware v. Van
Arsdall, 475 U.S. 673, 684, 106 S. Ct. 1431, 89 L. Ed. 2d 674 (1986); State v. Lui,

-6-

V,

State v. Romero-Ochoa (Leonel), 95905-6

179 Wn.2d 457,495,315 P.3d 493 (2014); State v. Jones, 168 Wn.2d 713, 724,230
P.3d 576 (2010). An error is harmless and not grounds for reversal if the appellate
court is assured beyond a reasonable doubt that the jury would have reached the
same verdict without the error. Lui, 179 Wn.2d at 495; Jones, 168 Wn.2d at 724;
Van Arsdall, 475 U.S. at 684.
In the context of an erroneous exclusion of impeachment evidence, “[t]he
correct inquiry is whether, assuming that the damaging potential of the cross­
examination were fully realized, [we can] nonetheless say that the error was
harmless beyond a reasonable doubt.” Van Arsdall, 475 U.S. at 684. Consistent
with our overwhelming untainted evidence test, this inquiry requires us to find the
error harmless if, in light of the entire trial record, we are convinced that the jury
would have reached the same verdict absent the error.3 Relevant considerations
include the properly admitted direct and circumstantial evidence (i.e., the strength
of the State’s case and the plausibility of the defense theory) and the overall

3 Compare State v. Guloy, 104 Wn.2d 412, 426, 705 P.2d 1182 (1985) (“The
‘overwhelming untainted evidence’ test allows the appellate court to avoid reversal on...
technical... grounds while insuring that a conviction will be reversed where there is any
reasonable possibility that the use of inadmissible evidence was necessary to reach a guilty
verdict.”), with Van Arsdall, 475 U.S. at 681 (“we have repeatedly reaffirmed the principle
that an otherwise valid conviction should not be set aside if the reviewing court may
confidently say, on the whole record, that the constitutional error was harmless beyond a
reasonable doubt”).
-7-

State v. Romero-Ochoa (Leonel), 95905-6

significance of the erroneously admitted or excluded evidence in this context (e.g.,
whether it was cumulative or corroborated, or consistent with the defense theory).
Van Arsdall, 475 U.S. at 684 (where trial court erroneously excluded impeachment
evidence in violation of confrontation clause protections, factors relevant to the
harmless error analysis “include the importance of the witness’ testimony in the
- - -prosecution’s case, whether the -testimony was cumulative, the presence or absence
of evidence corroborating or contradicting the testimony of the witness on material
points, the extent of cross-examination otherwise permitted, and, of course, the
overall strength of the prosecution’s case”); Lui, 179 Wn.2d at 496-97 (erroneous
admission of autopsy report harmless in light of properly admitted forensic, motive,
and other circumstantial evidence, and the fact 'that defendant’s testimony was
■

contradicted by other witnesses and DNA (deoxyribonucleic acid) evidence); State
v. Hieb, 107 Wn.2d 97, 110-12, 727 P.2d 239 (1986) (erroneous admission of
hearsay harmless where “o verwhelming circumstantial-evidence” supported State’s
theory and defendant’s theory was incompatible with physical evidence); State v.
^

r

Guloy, 104 Wn.2d 412,426,705 P.2d 1182 (1985) (erroneous admission of hearsay
harmless in light of “the overwhelming amount and credibility of the properly
admitted evidence”).

1

-8-

State v. Romero-Ochoa (Leonel), 95905-6

Harmless error review requires close scrutiny of all the evidence. As detailed
below, 13 separate witnesses corroborated the victim’s,account of her attack. These
witnesses included neighbors who heard the attack and witnessed the victim trying
to escape, first responders who saw the victim run out of her house half naked and
crying, detectives and technicians who gathered crime scene and forensic evidence,
and medical personnel who treated the victim and documented her injuries and
'

'

.

i’

physiological indicators of stress. The only witness for the defense was RomeroOchoa, who admitted to sexual intercourse with the victim but said it was
consensual, the result of a chance encounter with a former secret lover. The victim’s
sister took the stand to rebut numerous aspects of Romero-Ochoa’s story.
The victim testified at trial and gave the following account of the attack:
By July 3, 2014, the victim and her daughter had lived in unit A at the San
Francisco Avenue trailer home park for three or four years. Before she and her
daughter went to sleep that night, the victim closed all the windows in their home,
including the window, which did not lock, in the room where she and her daughter
slept. The victim woke up at about 3 a.m. to find a strange man (whom she identified
at trial as Romero-Ochoa) standing over her bed; when she asked him who he was,
he said, “Just be quiet. Don’t say anything.” 6 VRP (Oct. 20, 2015) at 9. At that
point, the victim stood up and ran into her living room, where Romero-Ochoa

-9-

State v. Romero-Ochoa (Leonel), 95905-6

grabbed her by the hair, pulled her over to the couch, and pressed his hands on her
mouth and neck so that she could barely speak. He climbed on top of her, started
taking off his pants, and took off her shorts and underwear. She told him to leave
her alone and he told her to be quiet. He kissed her neck and legs for about 2 minutes,
telling her, “‘I like you”’ and “‘I’m doing this to you because I like you,”’ and then
raped her for about 20 minutes. Id. at 12. During the rape, the victim was crying
and screaming, and Romero-Ochoa repeatedly hit her in the face, covered her mouth,
and told her to be quiet.
At some point while she was still being raped, the victim told herself to calm
down and think of an escape plan,. Because Romero-Ochoa smelled strongly of
alcohol and . appeared to her to be dmnk, she thought she might be able to distract
him by offering him a beer. She asked him if he would like a beer, he said yes, and
she told him he could get it out of the refrigerator. He told her that she would, get it
for him and then grabbed her by the hair and pulled her toward the refrigerator. After
the victim took a beer from the refrigerator, Romero-Ochoa grabbed it with both
hands, and she was able to run out of the house, -taking a small blanket with her. 'She
ran about 10 meters to the house across from hers and banged on the windows, but
nobody answered. Romero-Ochoa chased her, grabbed her by the hair, and hit her
twice in the face. Romero-Ochoa threw her on the ground and dragged her about

-10-

State v. Romero-Ochoa (Leonel), 95905-6

2 meters back to her house. Back inside the house, Romero-Ochoa threw her back
on the sofa and raped her again for 20 to 25 minutes, covering her mouth. This time,
the victim was crying but not screaming or paying anything because she was scared
he would kill her. Romero-Ochoa stopped raping her when someone knocked on
the door. He began to get dressed, holding the victim by the hand “really, really
hard” until he needed to put on his shoes. Id. at 20. At that point she was able to
get away from him and she ran out the front door.
Once outside, the victim ran to her neighbor, Elizabeth Guillen, who was
standing across from the victim’s house, and told her that her daughter was still
inside. About 5 minutes later, after'the'police had arrested Romero-Ochoa and
-• •

'

1..

Guillen had retrieved the victim’s daughter from inside the house, officers
interviewed the victim and asked her if she knew her attacker. She told them she
did not know his name, but that when he threw her down on the couch and she got a
clear look at his face, she remembered that she had seen him before.
The victim recalled that she had met Romero-Ochoa once,, before the attack,
at a birthday party that she and her former partner had thrown for their daughter in
November 2011. Romero-Ochoa and his brother had arrived, uninvited, and stayed
about 20 minutes. Romero-Ochoa had asked the victim what her name was and she
told him, but otherwise they did not interact. Since then she had occasionally seen

-11-

State v. Romero-Ochoa (Leonel), 95905-6

him driving or at the store, but had never again spoken with him. She did not learn
his name until after he attacked her.
About 10 minutes after she gave her statement to police, an ambulance arrived
and took the victim to the hospital. The doctors and nurses at the hospital examined
the victim at about noon that day, by which time her entire body hurt. Her lips and
mouth had scratches; her neck, hands, and legs were bruised and hurt; and her vagina
was burning. She could not stop crying.
>

The following testimony from other witnesses corroborated the victim’s
account:
Officers Ryan Moody and Maxwell Criss of the Lakewood Police Department
were dispatched to a disturbance at a trailer home park on San Francisco Avenue at
about 4:30 a.m. on July 4,2014, where they eventually encountered Romero-Ochoa.
After talking with' a reporting party and two other residents, the officers began
investigating residence A and found that one of the windows was open. The officers
could hear noises from inside but could not tell what they were; they knocked and
received no response. Finally, after talking again with a reporting party, the officers
were preparing to force entry when the front door suddenly “flew open” and a
woman with a. “look of frantic fear” on her face ran out, her bottom half naked.
5 VRP (Oct. 19, 2015) at 58-59. Through the now-open door, the officers saw

-12-

State v. Romero-Ochoa (Leonel), 95905-6

Romero-Ochoa standing inside the home, without any pants on, appearing shaky and
unsteady on his feet, with a “glazed-over look in his eyes.” Id. at 59. The officers
arrested Romero-Ochoa and cleared the residence, finding no one else inside except
i

a small child sleeping in a bedroom. Afterward, they spoke briefly with the woman
who fled. She had red marks on her face and neck and was distraught and crying
She told Officer Criss that she awoke to Romero-Ochoa standing over the bed where
she was sleeping with her daughter, that she yelled at him to get out, and that he then
grabbed her by the hair and forced her into the living room where he slapped her
face, choked her, and raped her. The victim told Officer Criss that the defendant
covered her mouth while he was raping her so she could not scream,. She also said
that she had seen her attacker around the trailer park but did not know his name.
Detective Darin Sale of the Lakewood Police Department testified that on the
morning of July 4, 2014, police collected pink shorts, undergarments, and an
unopened beer bottle from the victim’s living room, and a sock arid .a man’s
undergarment from her front porch.
Guillen (the neighbor) woke up at 3 or 4 a.m. that morning to what sounded
like a fight coming from a neighbor’s home. She heard two periods of screaming,
about 5 or 10 minutes apart, which lasted only a couple of seconds each, She
characterized the screams as “[k]ind of like a cry for help, or ‘don’t.’” Id. at 101.

-13-

State v. Romero-Ochoa (Leonel), 95905-6

After hearing, the second scream, Guillen looked out her window and saw a
“shadow55 running up the stairs of the park manager’s office. Id. at 102. She heard
the shadowy figure yell for help in both English and Spanish, and then Guillen called
911. Guillen went outside where she saw more neighbors, told them that the
screaming was coming from the victim’s house, and also heard thumping and the
sound of what appeared to be furniture being moved. Guillen was still standing
' r~

'

outside when the victim ran out of her house with only a shirt or tank top on, yelling
that her daughter was inside. Guillen grabbed the victim and hugged her for about
5 minutes. The victim was shaking and crying and yelling repeatedly, ‘“He came in
through my window.. He raped me.”5 Id. at 105. When Romero-Ochoa came out
of'the victim’s home shortly after that, he was calling to the victim in Spanish, saying
something like, “my love, why are you doing this?” Id. at 105. He looked to Guillen
like he was intoxicated or on drugs.
On the night of the 911 call, ^Guillen’s husband, Rafael Guillen-Gonzalez,
looked out his living room window and saw Romero-Ochoa pulling the victim by
her hair with both hands and dragging her into her home. The victim was wearing
only a tank top and was screaming and crying out for help. The lower half of her
body was on the ground as Romero-Ochoa dragged her 15 feet across gravel, telling
- \

-14-

State v. Romero-Ochoa (Leonel), 95905-6

her to be quiet. Guillen-Gonzalez told his wife to call the police and she did; the
police arrived about 10 minutes later.
Abel Garcia, the manager at the trailer park where the victim lived, called 911
at about 4:30 a.m. on July 4, 2014, after he heard someone “asking for help and...
kind of like screaming.” 6 VRP (Oct. 20, 2015) at 98. He thought this person’s
mouth was being intermittently covered so they could not cry out. Right before he
called 911, Garcia looked out his window and saw somebody on a neighbor’s porch;
he could not-see who it was, but he told the dispatcher it sounded like “‘a girl in
trouble.’” Id. at 100. After he called 911, Garcia went outside and encountered
another neighbor, and the two of them went to look for the source of the screaming.
They determined the screaming, which sounded breathless, was coming from the
victim’s unit; they could also hear a male voice coming from that unit. Police
officers arrived, spoke with two other neighbors (Guillen and Guillen-Gonzalez),
and then approached the house; shortly thereafter, the victim ran out, “embarrassed
because she was out of clothes ” Id. at 104.
Officer Michelle Hector testified that she interviewed the victim at the
hospital on the morning of July 4,2014. Officer Hector recalled that the victim was
crying, had red marks all over her face, and repeatedly stated that no one had come
to help her. The victim recounted the attack for Officer Hector, telling her the same

-15-

State v. Romero-Ochoa (Leonel), 95905-6

details she had given to police. Later that afternoon, Officer Hector photographed
the victim’s injuries, including scratches on the victim’s face and neck, red marks
on her neck, and red marks and bruising on one or both of her legs.
Dr. Jaime Delcampo was the emergency physician on duty when the victim
was admitted to the hospital. He examined the victim that morning and noted that
she was crying and extremely anxious, with a very elevated heart rate and bruising
on the right side of her face, mostly along her jaw. He reexamined the victim
regularly throughout his shift, which ended at 2 or 3 p.m., and observed that her
bruising became worse as the day progressed, especially on her neck. Because
visible bruising from strangulation is relatively rare, Dr. Delcampo was concerned
about vascular and arterial injuries and ordered a CT (computed tomography) scan.
He also noted that the victim had bruising on her left inner thigh and shin, had
swelling in her left wrist, was complaining of pain in her neck, and had an elevated
white blood cell count, which Dr. Delcampo attributed to a stress reaction.: Dr.
Delcampo tried to find a sexual assault nurse examiner (SANE) to do a genital
examination and evidence collection, but none was available, so he performed that
examination himself, assisted by a resident who spoke Spanish and a member of the
hospital’s nursing staff. Dr. Delcampo observed bleeding in the victim’s vagina but
no lacerations or bruising. The victim reported pain when he examined her vagina

-16-

State v. Romero-Ochoa (Leonel), 95905-6

and uterus. Dr. Delcampo testified that it was common for victims of sexual assault
to report pain but uncommon for them to have any vaginal lacerations or bruising.
A forensic scientist from the Tacoma crime laboratory testified that DNA
• '

J

swabs from Romero-Ochoa’s penis matched a DNA reference sample provided by
the victim.
Mandy Graham, the ER (emergency room) nurse who participated in the
victim’s SANE exam, did a head to toe examination of the victim and noted bruising
behind her left ear; multiple scratches to her face and neck; blue bruises on her upper
left arm, right hand, and lower leg; a six-inch bruise on her left inner thigh; and
scratches on her knees and knuckles. Graham was present with the victim for several
hours throughout her shift and recalled that the victim remained veiy upset and
tearful the whole day.

' • 1

Finally, Sarah Hanley, the triage nurse on duty when the victim arrived at the
ER on July 4, 2014, described her as “disheveled and . .. . somewhat frantic[,]
tearful and anxious” and speaking so rapidly that Hanley could not make notes of
what she was saying. 8 VRP (Oct. 22, 2015) at 26. Hanley did a preliminary
assessment and noted red marks on the victim’s neck. Hanley recognized the marks
as the kind that would later develop into bruises. The victim told Hanley, “‘He
choked me.’” Id. at 28.

-17-

State v. Romero-Ochoa (Leonel), 95905-6

To undermine the State’s case, Romero-Ochoa elicited the following on crossexamination:
The apartment manager, Garcia, acknowledged telling police that night that
he had seen a male attempting to leave the victim’s house through a window right
before the officers arrived.
Officer Moody acknowledged that-the-young child at the victim’ s home was asleep when the officers found her and that he did not hear any loud noises between
arriving on the scene and seeing the front door open.
Officer Hector acknowledged that she did not see any fingerprints or hand
imprints on the victim’s neck but also explained that such markings were rare in her
experience with choking victims.

She also acknowledged that she • did not

photograph the lower back part of the victim’s body and did not recall the victim
reporting any injuries to this area, even though the victim reported being dragged,
unclothed, across the ground.
Dr. Delcampo acknowledged that the lack of visible injury to a patient’s
genitals could be consistent with either a sexual assault or consensual sex, but he
also clarified that in his experience the majority of patients who underwent a SANE
exam did not have visible injuries to their genitals or the surrounding area. He also
acknowledged that the CT scan did not reveal any traumatic injuries to the victim’s

-18-

State v. Romero-Ochoa (Leonel), 95905-6

• /

neck but explained that neck pain can also be caused by minor soft tissue injuries,
which do not register on a CT scan.
Romero-Ochoa was the only witness for the defense. He offered the following
account:
Romero-Ochoa testified he first met the victim in 2008 and 2009, when he
and his brother, Pascual, renovated a restaurant/butcher shop called El Compadre,
which was managed by the victim’s brother Leonel. The victim occasionally came
to El Compadre to pick up meat for a restaurant called El Sabroso, which was
managed by her other brother, Gil. In addition, both Romero-Ochoa and his former
' wife were socially connected with the victim’s family: Romero-Ochoa was close
friends with Leonel and well acquainted with Gil and had done remodeling work for
both of the victim’s sisters, Deici and Maria; Romero-Ochoa’s former wife had
sometimes cared for both Deici’s and the victim’s children, watching the victim’s
daughter once or twice a month.
. Romero-Ochoa said that he and the victim began a secret sexual relationship
in 2010, meeting at least twice a month at a hotel around 9, 10, or 11 p.m. Their
affair ended in 2013 after she began to confide in him too much about the problems

-19-

iState v. Romero-Ochoa (Leonel), 95905-6

she was having in her marriage4 and his wife began to suspect something was going
on.5
On My 3, 2014, Romero-Ochoa was living in Kent but went to visit Pascual
at his home at the San Francisco Avenue trailer park. He left Pascual’s house at
around 2 a.m. on My 4 and began walking to. a nearby gas station, where a friend
was going to pick him up, when he noticed that the victim was standing at a window
of her home. At this point, it had been about a year and a half since the two of them
had ended their relationship and ceased all sexual intimacy, and it was random
chance that the victim happened to be standing at her window as Romero-Ochoa
walked by that early morning.
According to Romero-Ochoa, she called him over and directed him to come
through her window because she did not want to open the front door. Romero-Ochoa
did as she asked, although he was concerned about waking her daughter. The two
then went into the living room where they started to discuss their past relationship
and the toll it had taken on their families. They decided to have sex, but Romero-

4 According to her sister Deici, the victim was never married to her daughter’s father
but did refer to him as her “husband” when they were together. 9 VRP (Oct. 26,2015) at
80.
5 Later, on cross-examination, Romero-Ochoa testified that the affair ended in 2012.
Romero-Ochoa struggled with dates at several points; for example, immediately after
testifying that he had been divorced from his wife for three years in July 2014, he told the
' prosecutor that he was divorced in 2013.
-20-

State v. Romero-Ochoa (Leonel), 95905-6

Ochoa wanted to take a bath first because he was sweaty. The victim would not let
him. She started taking her clothes off, and then the two of them began having sex
on the living room couch at around 2:45 or 3 a.m. At some point, they fell off the
couch. Romero-Ochoa did not know whether the victim hurt herself when they fell,
but she “hit herself on the carpeting.” 9 VRP (Oct. 26, 2015) at 20. At that point,
Romero-Ochoa no longer wanted to have sex because he was still dirty, and the
.1

victim became angry, accusing him of indifference toward her. He tried to explain
to her that not everything is about sex and that relationships have to be done right,
but she would not calm down, She responded by getting “hysterical,” mussing up
her hair, and grabbing at her own face. Id. at 21.
Upset by this, Romero-Ochoa asked the victim to get him a beer to help him
calm down. She complied, “[a]nd she gave it to. me. And I asked her did she have
something with which to open it, and she said no. She just threw it at me. And she
was very angry, and at that point she runs out.. . the door.” Id. at 21/ RomeroOchoa thought she just needed some air, but when he followed her outside she was
*

screaming that he did not love her anymore. In response, he grabbed her and took
her back inside. He estimated that they were outside for about 2 or 3 minutes. Once
back inside, he asked her whether she was concerned that the neighbors had heard
her screaming and she said she was not. As he started taking his pants off, the police

-21-

State v. Romero-Ochoa (Leonel), 95905-6

knocked on the door. The victim then “started again acting up” and ran out of the
house a second time. Id. at 23.
On cross-examination, Romero-Ochoa could not remember the name of the
victim’s daughter or any hotel the two had ever patrbnized. Before court broke for
lunch, Romero-Ochoa testified that during their affair he and the victim went to
dances but did not go out visiting very much because the victim dldlibt have time.
After lunch, he testified that they never went out together, that they went dancing at
a music venue in the area called El Cafe, and that he never went to her house. At
first he testified that he never went to her house in 2013 because her husband was
there, but after he was reminded that the victim whs already separated from' her
daughter’s father in 2013, he testified that he never went to her house because
everyone in the area knew him and he might have been seen. Romero-Ochoa
testified that he had not spoken to his brother, Pascual, about the case (and so would
not call him as a corroborating witness) because Pascual believed that a person
should clean up his own messes.
->

When asked if there was anything on the - window when the victim called to
i

him through it, Romero-Ochoa at first said no; when pressed to recall whether there
was a blanket on the window, Romero-Ochoa said yes, there was, but both the

-22-

State v. Romero-Ochoa (Leonel), 95905-6

blanket and the blinds were behind the victim, who was leaning her upper body out
of the window.
When asked about the injuries the victim presented with at the BR that
morning, Romero-Ochoa speculated that she might have sustained the bruising to
her knee, which he had seen in a photo, when they fell off the couch during sex.
When asked whether the fall onto her carpeted floor also caused the injuries, to the
victim’s neck and inner thigh, Romero-Ochoa said he did not know and could not
remember because it was a little dark. Romero-Ochoa clarified for the prosecutor
that the victim was laughing when the two of them fell onto the carpet during sex,
then immediately got dressed when they got up, and then, immediately after getting
dressed, became angry and began clawing at her own face because Romero-Ochoa
did not want to engage in sex again. Contrary to the testimony of all three neighbors,
Romero-Ochoa denied that the victim yelled for help the first time she ran out of her
^

^

house; he admitted that she.had banged on a neighbor’s trailer but said that she did
this only because she was angry and not because she actually wanted someone to
come out. Contrary to the testimony of Guillen-Gonzalez, Romero-Ochoa said he
did not grab the victim by the hair or force her back inside her house but that he only
persuaded her, with words and a hug, to go back inside. ■

-23-

State v. Romero-Ochoa (Leonel), 95905-6

Finally, the victim’s sister Deici took the stand to rebut several aspects of
: Romero-Ochoa’s testimony. She offered the following:
She had lived at the San Francisco Avenue trailer park since 2007 and
recognized Romero-Ochoa as someone who used to live there, although she did not
know him personally. She worked at Taqueria El Sabroso, a business owned and'
operated by her fanhly members^ Romero-Ochoa’V brother, Pascual,~frad once
worked on her trailer, but Romero-Ochoa never worked there with him. Deici’s
brother Leonel did now live in Mexico, but her other brother, Gil, had lived in
Montana, not Okanagan, for at least 16 years.
Deici saw the victim every day; the two regularly spent the hours between 10
a.m. and 4 p.m. together, and Deici watched the victim’s daughter every day from 4
p.m. to 10:30 p.m. while the victim was at work. The two sisters did everything
together and were very close. They talked about relationships all the time. The
victim did not have a boyfriend because she spent most of her time with her daughter.
Deici had never seen Romero-Ochoa with the victim and had never watched the
victim’s daughter after 10 p.m.
‘n

On cross-examination, defense counsel pressed Deici to say that her brother
Gil had once lived in Okanagan; that her brother Leonel had owned a restaurant/shop
called El Compadre; and that she had sometimes left her child in the care of Romero-

-24-

State v. Romero-Ochoa (Leonel'), 95905-6

Ochoa’s wife. She denied all of these things, adding that she had never heard of a.
restaurant called El Compadre. Deici said that she had never seen any members of
her family with Romero-Ochoa.

'

In light of the entire trial record, we conclude that any error in excluding the
U visa evidence was harmless beyond a reasonable doubt as to all of RomeroOchoa’s convictions. The Court of Appeals’ distinction between the unlawful
imprisonment conviction and the remaining convictions is unsustainable.
As the prosecutor pointed out in closing, the victim’s account was
corroborated by three neighbors’ testimony about what they saw and heard while
Romero-Ochoa was at her house; by the testimony of the police officers who arrived
on the scene; and by the testimony of several medical professionals who-observed
the victim immediately after she arrived at the ER and then throughout the following
day as she cried, gave repeated and consistent accounts of her attack, and developed
bruises on her neck-and legs. By contrast, Romero-Ochoa provided no evidence
corrobbrating his story of a three-year affair with the victim. No witness ever saw
them together, and Romero-Ochoa was unable to recount even basic facts about the
, victim or their ostensible affair, such as her daughter’s name or any hotel they ever
stayed at. He testified inconsistently that the two went dancing together in public
but also that they never went anywhere together for fear of being discovered. No

-25-

State v. Romero-Ochoa (Leoriel), 95905-6

witness corroborated Romero-Ochoa’s account of a closer long-standing friendship
with the victim’s brother Leonel or an arrangement whereby Romero-Ochoa’s exwife regularly babysat for the victim’s and her sister’s children. Those claims, plus
others implying knowledge of the family and its restaurant business, were directly
refuted by Deici.
Romero-Ochoa’s account of July4, 2014, was also highly implausible. He
claimed that his sexual encounter with the victim that morning began when, by
random chance, he was passing by her house just as she was leaning out a window
that was covered by blinds and a blanket. On a sudden impulse, and although her
daughter was sleeping near that window, the victim called out to Romero-Ochoa that
i-

he should climb through it. According to Romero-Ochoa, she wanted him to come
through the window so she would not have to open the front door, presumably
because their affair was a secret and she feared observation by the neighbors. But
he also testified that she expressed no concern about the neighbors hearing her when,
less than an hour later, she ran screaming from her front door and banged on a
neighbor’s trailer. To explain the victim’s sudden change in behavior, RomeroOchoa claimed she was a “hysterical” rejected lover. But his U visa conspiracy
theory implies that, at some point after their initial chance encounter at the window,
the victim hatched a plot to frame him.

-26-

State v. Romero-Ochoa (Leonel), 95905-6

Standing on its own, that story would be very difficult for any jury to credit.
But here it was also contradicted or undermined by an overwhelming amount of
evidence supporting the victim’s account. First, there was the physical evidence of
the victim’s injuries, including a large bruise on her inner thigh, swelling in her wrist,
red marks and bruising consistent with strangulation, and an elevated white blood
cell count indicative of a stress reaction. Romero-Ochoa’s testimony could not
explain any of this evidence. There was also testimony by two neighbors who heard •
muffled screams and cries for help coming- from the victim’s home, and by one
neighbor who saw and heard the victim crying for help as she was dragged into her
home by her hair. This conflicts with Romero-Ochoa’s testimony that the victim
never called for help and that he did not drag her back into the house.6 Finally, there
was the collective testimony of numerous first responders and medical personnel
that the victim fled her house, naked from the waist down and visibly panicked, and
.

.

• ..

•

then remained tearful and anxious for at least 12-hoursafterward. For the U visa

We also note that Romero-Ochoa’s testimony on this issue conflicts with his
briefing in this court. In briefing, he argues that the visible injuries to the victim’s face and
body could all have occurred outside her home, in the course of the unlawful imprisonment
(a conviction he does not challenge). He reasons that, by the victim’s own account, she
and Romero-Ochoa “struggled outside... where [Romero-jOchoa grabbed her hair, threw
her to the ground, hit her twice in the face and dragged her along the ground to the door
while her bottom half was unclothed.” Suppl. Br. of Resp’t at 16 (citing 6 VRP (Oct 20
2014) at 16-18, 55).
-27-

State v. Romero-Ochoa (Leonel), 95905-6

impeachment theory to have undermined any of this testimony, the jurors would
have to have believed that the victim hatched an elaborate immigration fraud scheme
during the hour or so that Romero-Ochoa was in her home—after she fortuitously
spotted him from her window but before the police arrived.
We recognize that a prosecution witness’s U visa application could, given the
l

right set of facts, support a defense theory milder than outright fraud. As the Court
of Appeals noted in this case, the U visa incentive structure could lead a witness
merely to “embellish” allegations rather than fabricate them out of thin air. RomeroOchoa, No. 48454-4-H, slip op. at 12; see also Romero-Perez v. Commonwealth,
492 S.W.3d 902, 906-07 (Ky. Ct. App. 2016) (“Even if the victim did not outright
fabricate the allegations-against the defendant, the structure of the [U visa] program
(■

could cause a victim to embellish her testimony in the hopes of being as ‘helpful’ as
possible to the prosecution.”). But in this case, the difference .between the State’s
and the defendant’s theories was not plausibly a matter of .embellishment. Either
Romero-Ochoa committed first degree rape predicated on burglary or he was invited
into the victim’s home and committed at most second degree rape. The jury found
he committed burglary and first degree rape.- In light of the overwhelming evidence
supporting that conclusion, we can say beyond a reasonable doubt that

-28-

State v. Romero-Ochoa (Leonel), 95905-6

cross-examination on the victim’s U visa application would not have resulted in a
different verdict.
The Court of Appeals reversed Romero-Ochoa’s rape and assault convictions
based on the conclusion that “[the victim]’s testimony with regard to [Romero]Ochoa’s conduct inside her [house] was not cumulative to any other witness
testimony and was not corroborated by any other witness” and because “[although
the State s evidence against [Romero-] Ochoa was strong, its strength depended
entirely on the jury finding [the victim]’s testimony credible.” Romero-Ochoa, No. - '
48454-4-II, slip op. at 15. This is incorrect. The victim’s account of the events
inside her house was corroborated by every witness who testified that they heard her
screams or documented or treated her injuries, and by her sister, who rebutted
Romero-Ochoa’s uncorroborated account of a secret three-year affair. The strength
of the State’s evidence did not “depend[] entirely” on the victim’s credibility. Id.
Instead, the State’s theory and the victim’s credibility were both bolstered by an
overwhelming amount and variety of evidence.
The Court of Appeals also .erred by distinguishing between the unlawful
imprisonment conviction, corroborated by one neighbor’s eyewitness testimony, and
the other convictions, corroborated by numerous other forms of evidence. For
example, just as a neighbor saw Romero-Ochoa pull the victim back inside her house

-29-

-

ff

V'
■' i

State v. Romero-Ochoa (Leonel), 95905-6

by her hair, others also heard loud thumping noises coming from inside and later
saw the victim running out, half naked and visibly frightened. As the State points
out, such “‘overwhelming circumstantial evidence”’ can render a constitutional error
harmless beyond a reasonable doubt. Suppl. Br. of Pet’r at 5 (emphasis omitted)
(quoting Hieb, 107 Wn.2d at 111-12). There is no eyewitness evidence prerequisite
to a finding of harmless error/ Ihstead7an appeHate court makes theTarmless error
determination on the basis of the entire record. Hieb, 107 Wn.2d at 110 (quoting
!

Guloy, 104 Wn.2d at 426). Here, that record compels a finding of harmless error as
to all of Romero-Ochoa’s convictions.
CONCLUSION
We reverse the Court of Appeals’ harmless error holding with respect to the
convictions for tape, burglary, and assault,

Any error in prohibiting

cross-examination on the U visa application was harmless as to all of RomeroOchoa’s convictions. We thus reinstate the rape, burglary, and assault convictions
and remand to the Court of Appeals to address Romero-Ochoa’s claim of sentencing
error.

-30-

